Audit Report




OIG-11-082
SAFETY AND SOUNDNESS: Material Loss Review
of Bradford Bank
July 13, 2011




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................       1

    Causes of Bradford’s Failure .......................................................................          2
         Bradford Developed High Concentrations in Land, Construction, and
             Nonresidential Mortgage Loans ......................................................                 2
         Bradford Also Pursued Growth Through Acquisition and Merger .............                                3
         Failed Initial Public Offering ...............................................................           4
         Bradford’s Board of Directors and Management Provided Weak
             Oversight ....................................................................................       4

    OTS’s Supervision of Bradford ....................................................................            5
         OTS Did Not Effectively Limit Bradford’s Concentration Levels ..............                             6
         OTS Did Not Take Timely Enforcement Action .....................................                         8
         OTS Used Prompt Corrective Action as Bradford’s Capital Levels
             Declined .....................................................................................      9
    OTS’s Failed Bank Review ..........................................................................         10

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ....................................                11
    Appendix     2:      Background........................................................................     14
    Appendix     3:      Management Response .......................................................            16
    Appendix     4:      Major Contributors to This Report .........................................            17
    Appendix     5:      Report Distribution ..............................................................     18

Abbreviations

    ALLL                     allowance for loan and lease losses
    ERC                      Enforcement Review Committee
    FDIC                     Federal Deposit Insurance Corporation
    IPO                      initial public offering
    MHC                      Bradford Bank, Mutual Holding Company
    OIG                      Treasury Office of Inspector General
    OTS                      Office of Thrift Supervision
    PCA                      prompt corrective action
    ROE                      report of examination
    TFR                      thrift financial report




                         Material Loss Review of Bradford Bank (OIG-11-082)                                   Page i
This page intentionally left blank.
                                                                                      Audit
OIG
The Department of the Treasury
                                                                                      Report
Office of Inspector General



                       July 13, 2011

                       John E. Bowman, Acting Director
                       Office of Thrift Supervision

                       This report presents the results of our review of the failure
                       of Bradford Bank (Bradford) of Baltimore, Maryland, and the
                       Office of Thrift Supervision’s (OTS) supervision of the
                       institution. OTS closed Bradford and appointed the Federal
                       Deposit Insurance Corporation (FDIC) as receiver on
                       August 28, 2009. This review is mandated by section 38(k)
                       of the Federal Deposit Insurance Act because of the
                       magnitude of Bradford’s estimated loss to the Deposit
                       Insurance Fund. 1,2 As of September 20, 2010, FDIC
                       estimated that the loss would be $96.3 million.

                       Our objectives were to determine the causes of Bradford’s
                       failure; assess OTS’s supervision of Bradford, including
                       implementation of the prompt corrective action (PCA)
                       provisions of section 38; and make recommendations for
                       preventing such a loss in the future. To accomplish these
                       objectives, we reviewed the supervisory files and
                       interviewed officials at OTS and FDIC. We conducted our
                       fieldwork from November 2009 through February 2010.
                       Appendix 1 contains a more detailed description of our
                       objectives, scope, and methodology. Appendix 2 contains
                       background information on Bradford’s history, including fee
                       assessments paid to OTS and examination hours by OTS.

1
  At the time of Bradford’s failure, section 38(k) defined a loss as material if it exceeded the
greater of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010,
section 38(k) defines a loss as material if it exceeds $200 million for calendar years 2010 and
2011, $150 million for calendar years 2012 and 2013, and $50 million for calendar years 2014
and thereafter (with a provision that the threshold can be raised temporarily to $75 million if
certain conditions are met).
2
  Certain terms that are underlined when first used in this report, are defined in, Safety and
Soundness: Material Loss Review Glossary, OIG-11-065 (April 11, 2011). That document is
available on the Treasury Office of Inspector General’s (OIG) website at
http://www.treasury.gov/about/organizational-structure/ig/Pages/by-date-2011.aspx.

                       Material Loss Review of Bradford Bank (OIG-11-082)                 Page 1
                           In brief, Bradford failed because of (1) significant loan
                           delinquencies and losses incurred on its higher-risk
                           commercial real estate loans, (2) its acquisition and merger
                           activities, (3) a failed initial public offering (IPO), 3 and (4)
                           weak oversight by the board of directors and management.
                           OTS did not (1) limit or restrict the thrift’s concentration in
                           high-risk commercial real estate loans, nor (2) take timely
                           enforcement action. OTS used its authority under PCA as
                           Bradford’s capital levels fell, but the PCA taken did not
                           prevent the failure.

                           In light of the upcoming transfer of OTS functions to other
                           federal banking agencies on July 21, 2011, we are not
                           making any recommendations as a result of our material loss
                           review of the Bradford failure. 4 In a written response, OTS
                           acknowledged and concurred with the conclusions in our
                           report. OTS’s response is included as appendix 3.


Causes of Bradford’s Failure
                           Bradford failed because of significant loan delinquencies and
                           losses incurred on its higher-risk commercial real estate loans.
                           Other contributing factors to the failure were Bradford’s
                           acquisition of a thrift, its merger with two other thrifts, and a
                           failed IPO to raise capital. The growth of Bradford’s commercial
                           loan real estate portfolio, its acquisition and mergers, and its
                           IPO attempt resulted from an aggressive growth strategy that
                           the thrift implemented in February 2006. Furthermore,
                           Bradford’s board failed to adequately ensure that the thrift
                           operated in a safe and sound manner.

                           Bradford Developed High Concentrations in Land, Construction,
                           and Nonresidential Mortgage Loans

                           In January 2006, Bradford embarked on a poorly planned
                           aggressive growth strategy to reach $1 billion in assets over a
                           3-year period primarily by increasing higher-risk commercial
                           lending, especially land loans. As of December 31, 2007, land,

3
    Initial public offering is the first sale of stock by a company to the public.
4
    The transfer of OTS functions is pursuant to P.L. 111-203.

                           Material Loss Review of Bradford Bank (OIG-11-082)           Page 2
                      construction, and nonresidential mortgage loans represented
                      Bradford’s largest groups of nonperforming loans. From
                      December 2007 to December 2008, the total value of the
                      thrift’s nonperforming land, construction, and nonresidential
                      mortgage loans increased from $7.9 million to $30.1 million.
                      Although Bradford slowed its land, construction, and
                      nonresidential lending in the beginning of 2008, the losses
                      sustained on already existing loans caused capital to decline.
                      OTS’s 2006 report of examination (ROE) for Bradford noted that
                      the thrift’s capital, while meeting regulatory requirements for
                      well-capitalized status, was strained by the thrift’s growth and
                      was of particular concern because of Bradford’s risk profile.

                      Bradford Also Pursued Growth Through Acquisition and Merger

                      In January 2007, Bradford Bancorp, Inc., the thrift’s holding
                      company, acquired Valley Bank, a thrift with $49.4 million in
                      assets. 5 To maintain Bradford’s well-capitalized status, the
                      holding company obtained a $3 million dollar loan from
                      Banker’s Bank, which it downstreamed to Bradford. 6 In June
                      2007, Bradford merged with Senator Bank and Golden
                      Prague Federal Savings and Loan Association (Golden
                      Prague), resulting in combined total assets of approximately
                      $50 million. Bradford’s pro forma balance sheet that
                      incorporated the acquisition of Valley Bank, the Senator
                      Bank and Golden Prague mergers, and the additional capital
                      from Bradford Bancorp, Inc., reported Bradford as well-
                      capitalized, with a total risk-based capital ratio for the
                      consolidated entity at 10.1 percent.

                      The Securities and Exchange Commission later determined that
                      Bradford would have to change the accounting method it used

5
  Bradford was organized under a two-tier mutual holding company structure. Bradford Bank,
Mutual Holding Company (Bradford Bank MHC), was the top-tier entity, and Bradford Bancorp,
Inc. (later renamed Bradford Mid-Tier Company), was the second-tier company and owner of
Bradford.
6
  Banker’s Bank became Silverton Bank, N.A., which the Office of the Comptroller of the
Currency closed and appointed the FDIC as receiver on May 1, 2009. We issued an MLR on
Silverton – Safety and Soundness: Material Loss Review of Silverton Bank, N.A., OIG-10-033
(Jan. 22, 2010).


                      Material Loss Review of Bradford Bank (OIG-11-082)              Page 3
                       for the mergers of Senator Bank and Golden Prague from the
                       purchase method to the pooling method. 7 Pooling required
                       Bradford to recognize $2 million in merger-related expenses
                       immediately, instead of capitalizing them. Although Bradford
                       stayed well-capitalized throughout the acquisition and mergers,
                       these transactions eliminated the capital cushion the thrift had
                       above the well-capitalized minimum total risk-based capital
                       ratio. In addition, Valley Bank, Senator Bank, and Golden Prague
                       each brought additional higher-risk loans to Bradford’s already
                       high concentration of loans.

                       Failed Initial Public Offering

                       Bradford planned on selling stock to the public through its
                       holding company. The thrift estimated that it would raise $70
                       million in capital from the offering and planned to merge with
                       Patapsco Bank, which had approximately $230 million in assets,
                       after the IPO. Because of a weakening demand for bank stocks,
                       Bradford was able to raise only $13 million in commitments
                       from investors to purchase stock. In January 2008, Bradford
                       canceled the IPO and returned the $13 million to the investors.
                       The failed IPO caused Bradford to immediately recognize
                       $2 million in related expenses. Additionally, Bradford paid
                       $2 million to Patapsco as an acquisition cancellation fee.
                       Bradford’s failed IPO left the thrift with unsafe concentrations
                       of credit, and the losses sustained in its loan portfolios depleted
                       Bradford’s capital and contributed to its failure.

                       Bradford’s Board of Directors and Management Provided Weak
                       Oversight

                       Bradford’s board and management were responsible for
                       operating the thrift in a safe and sound manner but failed to do
                       so. The board ignored OTS’s warnings in 2006 about growth

7
 The purchase method is a method of acquisition accounting where the consolidated balance
sheet of the buying firm records the acquired assets revalued at the market price less liabilities
assumed at cost, and the difference between the purchase price and the revalued net assets as
goodwill. Goodwill is then amortized over the permitted period or treated as a tax deductible
expense. The pooling method is an accounting method where the assets and liabilities of
acquired or merged firm(s) are taken item by item and combined with the balance sheet of the
surviving firm.

                       Material Loss Review of Bradford Bank (OIG-11-082)                    Page 4
                       and the thrift’s capital position and did not take adequate action
                       in response to an internal analysis about the weakened local
                       housing market. The board also failed to ensure that Bradford
                       had adequate capital to support growth. Despite these
                       warnings, the board continued to approve high-risk commercial
                       real estate loans, further increasing the thrift’s risk profile.

                       Regulation O Violation

                       While not a contributing factor to the failure, we found that in
                       May 2007, the board approved a $10 million commercial loan
                       to a business principally owned by its chairman. As a result of
                       this loan, OTS cited Bradford for a Regulation O violation in the
                       2008 ROE for the thrift. 8 OTS informed Bradford that the loan
                       violated Regulation O because it exceeded the $100,000
                       threshold for loans to executive officers. Bradford ultimately
                       sold the loan to another institution.


OTS’s Supervision of Bradford
                       OTS conducted timely full-scope examinations of Bradford and
                       provided oversight through quarterly off-site monitoring.
                       However, OTS did not ensure that appropriate limits were
                       established on the thrift’s asset concentration. Also, OTS’s
                       enforcement actions against Bradford and its holding company
                       were not timely.

                       Table 1 summarizes the results of OTS’s safety and soundness
                       examinations and limited examinations of Bradford from 2006
                       until its closure in August 2009. 9




8
  The Federal Reserve Board’s Regulation O, 12 C.F.R. part 215 (implemented by OTS through
12 C.F.R. 563.43) sets various restrictions on extensions of credit to executive officers,
directors, and principal shareholders of the association and its affiliates and to the related
interests of these executive officers, directors, and principal shareholders.
9
  OTS conducted its examinations and performed offsite monitoring of Bradford in accordance
with the timeframes prescribed in the OTS Examination Handbook.

                       Material Loss Review of Bradford Bank (OIG-11-082)                 Page 5
Table 1: Summary of OTS’s Examinations of Bradford (December 2006 - June 2009)
                                                  Examination Results
Date
started/
completed/                                                       No. of
type of      Assets       CAMELS             No.                 corrective Enforcement
examination  (millions)   rating             of MRBAs            actions    actions
12/11/2006     $451        2/222223                  4                     7   None
02/07/2007
(full-scope
examination)
02/19/2008     $563        3/333334                  12                16      Notice of
06/01/2008                                                                     Troubled
(full-scope                                                                    Condition
examination)                                                                   issued
                                                                               12/30/2008
                                                                               C&D orders
                                                                               issued
                                                                               2/26/2009
02/18/2009     $504        4/443334                  0                     0   None
03/04/2009
(limited
examination)
04/20/2009     $462        5/555545                  10                21      None
07/01/2009
(full-scope
examination)
06/05/2009     $483        5/553334                  0                     0   PCA
06/05/2009                                                                     directive
(limited                                                                       executed
examination)                                                                   7/24/2009
 Source: OTS report of examinations.



                      OTS Did Not Effectively Limit Bradford’s Concentration Levels

                      According to the June 2005 OTS Handbook, examiners should
                      include in the ROE, concentrations that present a supervisory
                      concern, for example, those concentrations that exceed 25
                      percent of core capital plus the allowance for loan and lease
                      losses (ALLL). When loans have an especially high risk of loss,
                      examiners should report even lower levels of concentrations,
                      such as 10 percent of capital plus ALLL. In addition, if the

                      Material Loss Review of Bradford Bank (OIG-11-082)              Page 6
                     examiner’s review indicates significant asset quality concerns,
                     the examiner may need to expand the review to additional
                     portfolios.

                     In the 2006 ROE, OTS stated that Bradford had several higher-
                     risk asset categories that represented investments in excess of
                     25 percent of the bank’s core capital plus the allowance, and
                     management needed to enhance its internal review process
                     because of the concentrations. The ROE also stated that
                     Bradford continued to focus on expanding its higher-risk
                     commercial portfolio, which increased by $25 million during the
                     review period, with additional growth planned. As of
                     September 30, 2006, higher-risk commercial loans totaled 383
                     percent of core capital plus the allowance for loan and lease
                     losses. Although there were four MRBAs issued in 2006, none
                     addressed Bradford’s concentration levels. OTS examiners for
                     Bradford told us that it was difficult to limit concentrations due
                     to a lack of guidance.

                     Notwithstanding the statements by the examiners, we believe
                     that OTS should have taken stronger action to address the high
                     concentrations identified by its 2006 examination. By 2007,
                     Bradford’s problem loans increased because of the weakening
                     real estate market and the thrift’s exposure to these higher-risk
                     commercial loans. In the 2008 ROE, OTS identified
                     concentrations in land loans, construction loans, and
                     nonresidential mortgages as well as significant weaknesses
                     associated with these loans.

                     In July 2009, OTS issued additional guidance to thrifts on asset
                     and liability concentrations and related risk management
                     practices to address the need for more guidance on
                     concentration limits. 10 The guidance re-emphasized important
                     risk management practices and encouraged institutions to revisit
                     existing concentration policies given the current economic
                     environment. The guidance informed thrifts that OTS examiners
                     will closely review and scrutinize higher risk concentrations and

10
  OTS issued this guidance in a memorandum “Risk Management: Asset and Liability
Concentrations” on July 9, 2009.

                     Material Loss Review of Bradford Bank (OIG-11-082)            Page 7
                       pursue appropriate corrective action or enforcement action
                       when an institution does not maintain appropriate concentration
                       limits or takes excessive risks. The guidance stated that OTS
                       will monitor all concentrations and will closely review
                       institutions that establish high internal limits, particularly if they
                       exceed 100 percent of core capital plus the ALLL. While we
                       believe the guidance is better than what had been available to
                       thrifts previously, it is too soon to tell whether the guidance will
                       be effective at controlling risky concentrations going forward.
                       This is an area we believe requires continued supervisory
                       attention.

                       OTS Did Not Take Timely Enforcement Action

                       OTS took enforcement actions against Bradford and its holding
                       company, Bradford Bank Mutual Holding Company (Bradford
                       Bank MHC), but the actions were not timely. The OTS
                       Southeast Region Supervisory Action Committee 11
                       recommended issuing a cease and desist order to Bradford and
                       Bradford Bank MHC on June 26, 2008. However, the cease and
                       desist order was not issued until February 26, 2009. OTS
                       officials explained that the 8-month delay was a result of the
                       draft cease and desist orders being exchanged a number of
                       times for review between the OTS Southeast Region’s Counsel
                       and Bradford’s lawyers.

                       OTS recognized the need for formal guidance on issuing and
                       tracking enforcement actions by releasing the New Directions
                       Bulletin 09 11a on August 7, 2009. The bulletin established
                       national guidelines for issuing enforcement actions
                       recommended by Regional Enforcement Review Committees,
                       which replaced the Regional Supervisory Action Committees. 12


11
   Established in each OTS region, the purpose of the Supervisory Action Committee is to ensure
consistent, fair, timely and appropriate implementation and resolution of enforcement actions.
12
   The New Directions Bulletin, “Timeframe Objectives Conformed to Exam Ratings,” states that
regional staff should complete formal enforcement actions and provide them to the thrift within
30 calendar days of the ERC meeting, to take effect within 60 calendar days of the ERC
meeting. In addition, the bulletin states that if the thrift does not execute the action within the
prescribed timeframes, OTS should consider taking additional supervisory action.

                       Material Loss Review of Bradford Bank (OIG-11-082)                   Page 8
                      OTS Used Prompt Corrective Action as Bradford’s Capital Levels
                      Declined

                      The purpose of PCA is to resolve problems of insured depository
                      institutions with the least possible long-term loss to the Deposit
                      Insurance Fund. PCA requires federal banking agencies to take
                      certain actions when an institution’s capital drops to certain
                      levels. PCA also gives regulators flexibility to supervise
                      institutions based on criteria other than capital levels to help
                      reduce deposit insurance losses caused by unsafe and unsound
                      practices.

                      OTS took the following key actions related to Bradford. The
                      PCA taken, however, did not prevent the failure of Bradford.

                      On May 26, 2009, OTS notified Bradford that it was
                      significantly undercapitalized based on the thrift’s March 31,
                      2009, thrift financial report (TFR) filed April 30, 2009. 13 OTS
                      required that Bradford file a capital restoration plan with OTS by
                      June 8, 2009. On June 4, 2009, Bradford submitted the capital
                      restoration plan, calling for a capital infusion from an investor or
                      acquisition by another institution. On July 7, 2009, OTS
                      determined the plan to be unacceptable because it appeared
                      unlikely that the thrift would find an investor or acquirer without
                      government assistance.

                      On July 8, 2009, OTS notified Bradford that (1) it was critically
                      undercapitalized according to PCA requirements, based on the
                      June 12, 2009, amendments to the thrift’s March 31, 2009,
                      TFR; (2) its capital restoration plan was disapproved; and
                      (3) OTS was requesting that Bradford’s board consent to a PCA
                      directive. On July 24, 2009, OTS executed a PCA directive
                      between OTS and Bradford that included the consent of the
                      thrift’s board to the appointment of a receiver.




13
  As of the December 31, 2008 TFR, Bradford’s total risk-based capital was reported as
adequately capitalized.

                      Material Loss Review of Bradford Bank (OIG-11-082)                 Page 9
OTS’s Failed Bank Review
             In March 2010, OTS completed an internal failed bank review of
             Bradford’s failure. The OTS review concluded that Bradford’s
             failure was caused by high levels of problem assets that steadily
             eroded capital. The report stated that the primary area in which
             OTS could have improved its supervision of Bradford was
             identification and control of the thrift’s high-risk asset
             concentrations. The report on the review recommended that
             examination and supervisory staff consider higher capital
             requirements and absolute limits on higher-risk lending
             concentrations. The report also recommended that OTS follow
             national guidelines for enforcement actions and ensure
             appropriate and timely implementation of such actions. Our
             material loss review affirms the findings and recommendations
             of OTS’s failed bank review.

                                         * * * * *

             We appreciate the courtesies and cooperation provided to
             our staff during the audit. If you wish to discuss the report,
             you may contact me at (202) 927-6512 or Susan Roy, Audit
             Manager, at (202) 927-5746. Major contributors to this
             report are listed in appendix 4.



             Michael J. Maloney /s/
             Audit Director




             Material Loss Review of Bradford Bank (OIG-11-082)      Page 10
                        Appendix 1
                        Objectives, Scope, and Methodology


                        We conducted a material loss review of Bradford Bank of
                        Baltimore, Maryland (Bradford), in response to our mandate
                        under section 38(k) of the Federal Deposit Insurance Act. 14
                        This section provides that if the Deposit Insurance Fund
                        incurs a material loss with respect to an insured depository
                        institution, the inspector general for the appropriate federal
                        banking agency is to prepare a report to the agency that

                        •    ascertains why the institution’s problems resulted in a
                             material loss to the insurance fund;
                        •    reviews the agency’s supervision of the institution,
                             including its implementation of the prompt corrective
                             action provisions of section 38; and
                        •    makes recommendations for preventing any such loss in
                             the future.

                        At the time of Bradford’s failure, a loss was defined as
                        material if it exceeded the greater of $25 million or 2 percent
                        of the institution’s total assets. We initiated a material loss
                        review of Bradford based on the loss estimate by the Federal
                        Deposit Insurance Corporation (FDIC). As of September 20,
                        2010, FDIC estimated that the loss to the Deposit Insurance
                        Fund from Bradford’s failure would be $96.3 million.

                        To accomplish our review, we conducted fieldwork at OTS’s
                        headquarters in Washington, D.C.; OTS’s Southeast Region
                        office in Atlanta, Georgia; and Bradford’s former
                        headquarters office in Baltimore, Maryland. We conducted
                        our fieldwork from November 2009 through February 2010.

                        To assess the adequacy of OTS’s supervision of Bradford,
                        we determined (1) when OTS first identified Bradford’s
                        safety and soundness problems, (2) the gravity of the
                        problems, and (3) the supervisory response OTS took to get
                        the thrift to correct the problems. We also assessed whether
                        OTS (1) might have discovered problems earlier;
                        (2) identified and reported all the problems; and (3) issued
                        comprehensive, timely, and effective enforcement actions
                        that dealt with any unsafe or unsound activities. Specifically,
                        we performed the following work:

14
     12 U.S.C. § 1831o(k).

                        Material Loss Review of Bradford Bank (OIG-11-082)       Page 11
                        Appendix 1
                        Objectives, Scope, and Methodology




                            We determined that the time period relating to OTS’s
                            supervision of Bradford covered by our audit would be
                            from January 2006 through August 28, 2009, the date
                            of Bradford’s failure. This period included three full-scope
                            safety and soundness examinations and two limited-
                            scope examinations.

                        •   We reviewed OTS’s supervisory files and records for
                            Bradford from January 2006 through August 2009. We
                            analyzed examination reports, supporting workpapers,
                            and related supervisory and enforcement correspondence.
                            We performed these analyses to gain an understanding of
                            the problems identified, the approach and methodology
                            OTS used to assess the thrift’s condition, and the
                            regulatory action OTS used to compel thrift management
                            to address deficient conditions. We did not conduct an
                            independent or separate detailed review of the external
                            auditor’s work or associated workpapers other than those
                            incidentally available through the supervisory files.

                        •   We interviewed and discussed various aspects of the
                            supervision of Bradford with OTS officials and examiners
                            to obtain their perspective on the thrift’s condition and
                            the scope of the examinations.

                        •   We interviewed investigators under contract to the FDIC
                            Division of Resolutions and Receiverships for federal
                            deposit insurance purposes.

                        •   We reviewed Bradford documents taken and inventoried
                            by FDIC Division of Resolutions and Receiverships
                            personnel.

                        •   We assessed OTS’s actions based on its internal
                            guidance and requirements of the Federal Deposit
                            Insurance Act. 15

                        •   We reviewed OTS’s March 10, 2010, internal failed bank
                            report for Bradford.

15
     12 U.S.C. § 1811 et seq.

                        Material Loss Review of Bradford Bank (OIG-11-082)        Page 12
Appendix 1
Objectives, Scope, and Methodology




We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions
based on our audit objectives.




Material Loss Review of Bradford Bank (OIG-11-082)     Page 13
Appendix 2
Background



Bradford Bank History

Bradford Bank (Bradford) opened in 1903 and was
headquartered in Baltimore, Maryland. Until its closure on
August 28, 2009, it operated nine branches in the greater
Baltimore area. On July 15, 2005, Bradford Bank, Mutual
Holding Company (MHC), was formed as Bradford’s top-tier
MHC, and Bradford Mid-Tier Company was formed as the
second-tier holding company.

OTS Assessments Paid by Bradford

OTS funds its operations in part through semiannual
assessments on savings associations. OTS determines each
institution’s assessment by adding together three
components reflecting the size, condition, and complexity of
an institution. OTS computes the size component by
multiplying an institution’s total assets as reported on the
thrift financial report by the applicable assessment rate. The
condition component is a percentage of the size component
and is imposed on institutions that have a 3, 4, or 5
CAMELS composite rating. OTS imposes a complexity
component if (1) a thrift administers more than $1 billion in
trust assets, (2) the outstanding balance of assets fully or
partially covered by recourse obligations or direct credit
substitutes exceeds $1 billion, or (3) the thrift services over
$1 billion of loans for others. OTS calculates the complexity
component by multiplying set rates times the amounts by
which an association exceeds each particular threshold.
Table 2 shows OTS’s paid assessments for Bradford for
2006 through 2009.




Material Loss Review of Bradford Bank (OIG-11-082)       Page 14
Appendix 2
Background


Table 2: OTS’s Assessments Paid by Bradford 2006–2009

 Billing Period                        Examination Rating      Amount Paid

   01/01/2006–06/30/2006                        2                 $48,825
   07/01/2006–12/31/2006                        2                 $50,697
   01/01/2007–06/30/2007                        2                 $59,728
   07/01/2007–12/31/2007                        2                 $66,631
   01/01/2008–06/30/2008                        2                 $68,974
   07/01/2008–12/31/2008                        3                 $99,575
   01/01/2009–06/30/2009                        3                 $96,969
   07/01/2009–12/31/2009                        5                $117,342
Source: OTS.


Number of OTS Staff Hours Spent Examining Bradford

Table 3 shows the number of OTS staff hours spent
examining Bradford from 2006 to 2009.

Table 3: OTS Hours

Start Date of Examination           Number of OTS Examination Hours
12/11/2006                                            948
02/19/2008                                          1,092
04/20/2009                                          2,136
Source: OTS.




Material Loss Review of Bradford Bank (OIG-11-082)                    Page 15
Appendix 3
Management Response




Material Loss Review of Bradford Bank (OIG-11-082)   Page 16
Appendix 4
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Susan I. Roy, Audit Manager
Ronda R. Richardson, Auditor-in-Charge
Horace A. Bryan, Auditor
John B. Gauthier, Auditor
Andrea D. Smith, Auditor
Maurice L. George, Auditor
Eleanor P. Kang, Program Analyst
Fawntrella L. Thompson, Referencer




Material Loss Review of Bradford Bank (OIG-11-082)    Page 17
Appendix 5
Report Distribution


Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U.S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of Bradford Bank (OIG-11-082)     Page 18
